            HEARING BEFORE THE

      U.S. HOUSE OF REPRESENTATIVES
      COMMITTEE ON WAYS AND MEANS
       SUBCOMMITTEE ON OVERSIGHT




                  April 6, 2006

                Washington, DC

               J. Russell George
Treasury Inspector General for Tax Administration
                       WRITTEN STATEMENT OF
       TREASURY INSPECTOR GENERAL FOR TAX ADMINISTRATION
                         J. RUSSELL GEORGE
                             BEFORE THE
                  U.S. HOUSE OF REPRESENTATIVES
                 COMMITTEE ON WAYS AND MEANS
                   SUBCOMMITTEE ON OVERSIGHT
                           HEARING ON THE
 2006 TAX RETURN FILING SEASON AND THE 2007 BUDGET PROPOSAL FOR
                  THE INTERNAL REVENUE SERVICE
                             APRIL 6, 2006



        Chairman Ramstad, Ranking Member Lewis, and Members of the Subcommittee,
I thank you for the opportunity to testify today on the Internal Revenue Service’s (IRS)
2006 Filing Season and the 2007 budget proposal. I will discuss the challenges facing the
IRS during the 2006 Filing Season, its longer term goal of increasing the number of
taxpayers who file electronically, and its ability to provide quality taxpayer service.

The 2006 Filing Season

         During the 2006 Filing Season, the IRS expects to process an estimated
135 million individual returns. One of the major challenges for the IRS each filing season
is the implementation of tax law changes. Changes to tax law have a major impact on
how the IRS conducts its activities, the resources it requires, and how quickly it can meet
its strategic goals. Congress generally makes changes to tax law each year, and before
each filing season begins, the IRS must identify tax law changes, revise various tax
forms, instructions, and publications, and reprogram its computer system to ensure
returns are accurately processed.

        So far, TIGTA has not identified any significant problems with the IRS’
processing of individual tax returns during the 2006 Filing Season. As of March 24,
2006, the IRS has received over 73.4 million returns. Of those, 50.3 million were filed
electronically (an increase of 2.6 percent from this time last year), and 23.1 million were
filed on paper (a decrease of 6.5 percent from 2005). Additionally, $144.5 billion in
refunds have been timely issued. Of this amount, $113.4 billion were directly deposited
to taxpayer bank accounts, an increase of 4 percent compared to last year.

        Planning for the 2006 Filing Season was unusually difficult for the IRS because
of many tax law changes enacted late last year in response to unprecedented natural
disasters. Disaster relief provisions were enacted into law for taxpayers affected by
Hurricanes Katrina, Rita, and Wilma, and were intended to provide relief to over
11 million taxpayers who lived in the affected areas of the Gulf Coast, as well as to others
who may have been adversely impacted by these storms.




                                             1
        This year, TIGTA is reviewing 28 new tax law provisions and also closely
monitoring the implementation of changes intended to assist taxpayers adversely affected
by the 2005 hurricanes. New tax law provisions were included in the Katrina Emergency
Tax Relief Act of 2005,1 the Gulf Opportunity Zone Act of 2005,2 and in provisions in
the Working Families Tax Relief Act of 20043 and the American Jobs Creation Act of
2004,4 all of which became effective in 2005. The latest legislation, the Gulf Opportunity
Zone Act of 2005, was signed into law on December 21, 2005.

        TIGTA reviewed the IRS’ preparation for the 2006 Filing Season and determined
that the IRS accurately updated its tax products and computer programming to
incorporate the tax law changes effective in 2005. TIGTA reviewed 42 tax forms,
publications, and instructions that required updating, and determined that they were
accurately updated. The IRS also accurately updated its computer programming and
returns processing programs for the new tax law provisions and other adjustments or
changes.5 TIGTA will continue to monitor the IRS’ processing of income tax returns
during the 2006 Filing Season and will report its results later this year.


Electronic Filing

         The IRS has seen a steady growth in electronic filing (e-file) of income tax returns
over the past several years. In Calendar Year 2002, 35.9 percent of the 130.3 million
individual income tax returns received by the IRS were e-filed. Last year, the percentage
of e-filed returns increased to 51.7 percent of the total individual income tax returns
received. The number of e-filed returns increased 46.2 percent over the three-year span.
While the IRS will not meet its goal of having 80 percent of all tax returns e-filed by
2007, it does expect to see continued growth in electronic filing, although at a somewhat
diminished growth rate from year to year. For example, the IRS expects the e-file
percentage to reach 54.1 percent this year, 57.7 percent in 2007, and 60.6 percent in
2008.

        Although e-filing continues to increase overall, TIGTA notes some indications
that taxpayers are shifting between the various types of e-filed returns, and some
segments of e-filed returns are starting to show a decrease in the numbers filed. E-filed
returns are generated from three basic sources – paid preparers who transmit their clients’
tax returns, taxpayers who purchase tax-preparation software and file their own returns
via the Internet from their personal computers, and taxpayers who take advantage of free
e-filing options, such as the Free File Program, or in years past, via the TeleFile Program.




1
  Pub. L. No. 109-73, 119 Stat. 2016 (to be codified in scattered sections of 26 U.S.C.).
2
  Pub. L. No. 109-135, 199 Stat. 2577 (2005).
3
  Pub. L. No. 108-311, 118 Stat. 1166 (2004).
4
  Pub. L. No. 108-357, 118 Stat. 1418 (2004).
5
  Discussion Draft Report Tax Products and Computer Programs for Individual Income Tax Returns Were
Accurately Updated for the 2006 Filing Season (Audit # 200640015)


                                                 2
        Overall, as of mid-March of this year, e-filing has increased 2.6 percent compared
to the same period in 2005, although this is significantly less than the 6 percent increase
the IRS expected. While the number of taxpayers e-filing from their home computers is
up 16.6 percent this Filing Season, the number of taxpayers taking advantage of free
online filing is down 21 percent below last year. I am concerned that more taxpayers are
not using the free e-filing services offered by the IRS, and I will discuss some issues
related to the Free File and TeleFile Programs in the following sections of this testimony.

Free File Program

Background

        In February 2002, President Bush established an agenda to improve management
of the Federal Government. One of his agenda items is E-Government.
E-Government is an integral part of the President’s Management Agenda to make it
easier for citizens and businesses to interact with the government, save taxpayer dollars
and streamline citizen-to-government transactions. In response to the President’s E-
Government initiative, the Office of Management and Budget (OMB) developed the
EZ Tax Filing Initiative. EZ Tax Filing was intended to make it easier for citizens to file
taxes in a Web-enabled environment. Citizens would no longer have to pay for basic,
automated tax preparation. The goal of this initiative was to increase the number of
citizens who filed their tax returns electronically.

        The IRS Restructuring and Reform Act of 1998 (RRA 98)6 established a goal for
the IRS of having 80 percent of Federal tax and information returns filed electronically
by 2007. It also required the IRS to work with private industry to increase electronic
filing. In response to this requirement, in 2003 the Department of the Treasury
(Treasury), OMB and the IRS launched the Free File Program featuring private-sector
partners that allow qualifying taxpayers to prepare and file their taxes online for free.
The Treasury, OMB and IRS made this possible through a public-private partnership with
a consortium of tax software companies, the Free File Alliance, LLC (Alliance).

        The Free File Program provides taxpayers with access to free online tax
preparation and e-filing services made possible through a partnership agreement between
the IRS and the tax software industry. Eligible taxpayers may prepare and e-file their
Federal income tax returns using commercial online software provided by Alliance
members. After the IRS and Alliance entered into a Free File Agreement, the Free File
Program debuted in January 2003. According to statistics provided by the Alliance, more
than 2.79 million taxpayers used the program in its first year. In subsequent years, use of
the Free File Program increased significantly, to about 3.51 million taxpayers in 2004,
and 5.12 million taxpayers in 2005.




6
 Pub. L. No. 105-206, 112 Stat. 685 (codified as amended in scattered sections of 2 U.S.C., 5 U.S.C. app.,
16 U.S.C., 19 U.S.C., 22 U.S.C., 23 U.S.C., 26 U.S.C., 31 U.S.C., 38 U.S.C., and 49 U.S.C.).


                                                    3
The Amended Free File Alliance Agreement and Its Potential Impact on Electronic
Filing

        After the 2005 Filing Season, the IRS and the Alliance amended their agreement
to continue the Free File Program through October 2009. With the amended agreement,
the overall focus of the Free File Program changed significantly. While the amended
agreement still contributes to the original goal of increasing the number of citizens who
electronically file their tax returns, new limits effectively changed the intent of the Free
File Program. The original intent of the program was to provide free tax preparation and
electronic filing services to all taxpayers. The revised intent is to assist lower income and
underserved taxpayers.

        The original 2002 agreement between the IRS and the Alliance established a
minimum number of taxpayers who should be served by the Free File Program and was
more in line with the intent of the EZ Tax Filing Initiative. There is, however, some
support in Congress for the shift in the program’s focus to lower income and underserved
taxpayers. For example, according to the House Appropriations Committee Report
accompanying the IRS’ FY 2005 Budget Appropriations, the Committee reaffirmed its
position that the Alliance is first and foremost intended to provide electronic Federal tax
return preparation and e-filing services at no cost to the working poor and other
disadvantaged and underserved taxpayers.

        As part of the amended agreement, new limits were set for participation in the
Free File Program. The new limits stem, in part, from the differing objectives of the IRS
and the Alliance members. One of the IRS’ principal purposes for establishing the
program was to add another avenue for electronic filing with the intent of increasing
electronic filing overall. However, Alliance members are businesses that incur a cost to
provide free services. According to representatives of Alliance member companies that
TIGTA interviewed, 7 their primary goal is to keep the Federal Government from entering
the tax preparation business. A secondary benefit of their participation in the program is
the opportunity to market their other products for free. Taxpayers opting to use these
services provide additional revenues to Alliance members.

       Per the initial agreement, a minimum of 60 percent of all taxpayers
(approximately 78 million) were eligible for the Free File Program. Last year, the
Alliance opened the program up to almost 130 million taxpayers. However, only
5.12 million taxpayers took advantage of it. The amended agreement now limits the
program’s availability to 70 percent of taxpayers (approximately 93 million). For Tax
Year 2005, this limitation equates to an Adjusted Gross Income (AGI) of $50,000 or less.
The maximum AGI to achieve the 70 percent limit, however, may vary from year to year.
The net impact of this new limit is that during the 2006 Filing Season approximately 40
million taxpayers will no longer be offered free filing services through the program.

        As mentioned earlier, online filing on home computers is up 16.6 percent this
Filing Season. This increase, however, appears to be the result of additional taxpayers
7
    TIGTA interviewed a sample of 6 of the 20 Alliance member companies.


                                                   4
paying for online filing services. As of March 18, 2006, paid online filing is up 33.8
percent while free online filing is down 21 percent. Two possible explanations for the
growth in online filing from home computers and the decline in free online filing are:
1) taxpayers who filed electronically through a practitioner last year may have decided to
purchase software and file online this year; and 2) taxpayers who filed through the
program last year do not qualify this year, and they purchased software to file online.

        Another factor that appears to have contributed to the decline in free online filing
is elimination of the IRS’ TeleFile Program. The IRS and the Alliance had hoped that
many of the 3.3 million taxpayers who used TeleFile in 2005 would migrate to the Free
File Program. However, current Filing Season statistics indicate that many former
TeleFilers are no longer electronically filing and instead are filing their returns on paper.

Positive Provisions of the New Free File Alliance Agreement

        Although the changes in the amended Free File Agreement limit the number of
taxpayers offered free tax preparation and filing services, several other changes enhance
the quality of the program. Under the amended agreement, Alliance members must
adhere to more stringent disclosure on the nature, costs, and alternative methods of
receiving refunds faster. In addition, not all taxpayers will be offered a Refund
Anticipation Loan (RAL). There is some controversy over RALs because of the high
fees and rates sometimes associated with those loans. Starting in 2006, the agreement
guarantees that some taxpayers using the Free File Program will have the option to
prepare and file their tax return without being offered a RAL. The decision of whether or
not to accept an RAL lies with the taxpayer; however, these new provisions make the
choice more clear. If taxpayers choose to apply for an RAL, all terms of the loans must
be fully disclosed.

       The amended agreement also increased security requirements and added
performance measures for the individual Alliance members. Alliance members must
have third party security assessments to ensure that taxpayer information is adequately
protected. Also, performance standards require a 60 percent acceptance rate8 for
providers who e-file returns through the program. This acceptance rate will be gradually
increased in future years.

       Under the amended agreement, Alliance members also agreed for the first time to
provide the IRS with an indicator that identifies those taxpayers who use the Free File
Program. Prior to the amendment, the IRS had no way to independently determine how
many taxpayers participated in the program, or which taxpayers were using it.
Previously, individual Alliance members reported data on participation in the program,
and the IRS lacked a method to monitor participation. This significantly hampered the
IRS’ ability to evaluate the program’s success or the effects of changes to the program.




8
    The percentage of returns an individual provider must transmit to the IRS error free.


                                                        5
Difficulties Using the Free File Program

         Although the Free File Program offers some taxpayers the option to prepare and
file their tax return for free, the program may not be accessible to all who are eligible for
it and it is not necessarily easy to use. The Free File Internet site easily allows taxpayers
to determine whether they qualify for the program, but finding the best software provider
for their needs is time consuming and may be difficult for less savvy computer users.

       Taxpayers must access the Free File Program through the IRS’ Internet site at
IRS.gov. The Internet site clearly identifies the basic requirements for participation in
the program and provides a tool that guides taxpayers to free filing providers. This tool
presents taxpayers with a number of providers from which to choose based on some basic
information that taxpayers provide. Although this tool guides taxpayers to the providers
they qualify to use, the tool does not assist taxpayers with determining which of those
providers best meets their needs.

       Taxpayers must access each provider’s Internet site to determine the services
offered and must then compare the services offered and select the provider that is the best
for them. Additionally, each Alliance member company sets taxpayer eligibility
requirements for its own program. These requirements may differ from company to
company. Generally, eligibility is based on such factors such as age, adjusted gross
income, State residency, military status or eligibility for the Earned Income Tax Credit.

        Although the Free File Program is currently focused on low-income taxpayers,
many of these taxpayers do not have access to the tools to use it. For example, taxpayers
who speak limited English have not been provided access to all the filing options offered.
Only two providers offer services in Spanish and neither of them offer free electronic
filing of Form 4868, Automatic Extension of Time to File.

        The Free File Program also requires taxpayers to have access to a computer and
the Internet. Taxpayers who have access to the necessary technology must also be savvy
enough to navigate the IRS’ and the Alliance members’ Internet sites. The focus of the
program on lower income taxpayers may be at odds with their ability to participate in it.
In her 2004 Report to the Congress, the National Taxpayer Advocate wrote that in 2001
approximately 50 percent of low income families9 used a computer and only 38 percent
had access to the Internet. Furthermore, access to a computer or the Internet does not
necessarily indicate that a person has the ability to navigate the Internet or use tax
preparation software.10

        The IRS offers free assistance to taxpayers with tax preparation and filing through
its Taxpayer Assistance Centers, Voluntary Income Tax Assistance, and Tax-Aide
Programs as well as through the Free File Program. Similar to the Free File Program,
taxpayers must meet certain requirements in order to receive assistance from those other
programs. The Free File Program, however, is the only free filing option that taxpayers

9
    Income of less than $25,000.
10
     National Taxpayer Advocate 2004 Annual Report to the Congress, Volume 1 December 2004.


                                                   6
may use from their homes. Taxpayers must bring their tax documentation to an
assistance site to take advantage of the other free tax preparation and filing services.

        The addition of the RAL provisions, increased security, and added performance
measures to the agreement are important means to further promote public confidence in
the Free File Program. Adding the electronic indicator to returns filed through the
program will provide the IRS with information to measure the program’s success.
However, limiting the scope of the program to 70 percent of taxpayers has impacted the
use of the program. Based on the statistics Alliance members provided in previous years,
the new limits in the amendment to the agreement appear to be substantially reducing
participation in the program. Furthermore, the AGI limit also keeps the program from
achieving the full intent of the EZ Tax Filing Initiative, which never specified any such
limits for access to free, basic, automated tax preparation and electronic filing. Not yet
known, however, is whether the IRS’ ability to better understand who is using and who is
not using the program will help the IRS better market the program and expand its usage
despite the new limits. The answer to that question may ultimately have a significant
effect on the overall growth rate of electronic filing.

Elimination of the TeleFile Program

       As mentioned earlier in my statement, one factor that appears to have negatively
impacted the growth of e-filing this year is the elimination of the TeleFile Program. The
IRS discontinued this program for individual taxpayers in August 2005. The TeleFile
Program allowed taxpayers with the simplest tax returns11 to file their returns by
telephone. The pilot TeleFile Program was launched on a limited basis in 1992, and the
program became available nationally in 1997. The RRA 98 included the expectation that
the IRS would continue to offer and improve TeleFile, and make a similar program
available on the Internet.

        Despite its initial success, use of the TeleFile Program began to decrease in 1999.
According to IRS electronic filing statistics as of April 17, 2005, approximately
3.3 million filers used TeleFile in 2005, a 12.7 percent decline from the previous year.
Until the IRS eliminated the TeleFile Program last year, participation in the program had
declined every year since 1999 when 5.2 million filers used it.

       Declining use was one factor the IRS considered when deciding whether or not to
end the TeleFile Program. Other contributing factors included the increasing cost of
maintaining an aging TeleFile system, declining and discontinued State TeleFile
programs, and the growing use of other electronic filing alternatives, such as the
Free File Program.




11
     Forms 1040EZ.


                                              7
         According to the IRS, taxpayers who previously used TeleFile may continue to
file electronically using one of the following five methods:
       1. Tax preparers;
       2. Personal computers with Internet access and tax preparation software;
       3. IRS’ Free File Program;
       4. Free tax assistance sites, such as the Voluntary Income Tax Assistance and
          Tax-Aide Programs; and
       5. IRS Taxpayer Assistance Centers.

         However, two of the five alternatives require the taxpayer to pay for tax
preparation and filing services that were previously free, and two other options require
taxpayers to have access to computers and the Internet. Consequently, in many cases, the
most cost-effective avenue for the taxpayer is to file a paper tax return. According to
initial IRS statistics, a significant number of former TeleFile users are reverting to filing
paper returns this year. As of March 17, 2006, the number of paper Form 1040EZ returns
filed has increased 22 percent compared to this time last year (4.5 million in 2006
compared to 3.7 million in 2005), and there has been a corresponding decrease in
electronically filed Forms 1040EZ (5.8 million in 2006 vs. 7.3 million in 2005).

         TIGTA will further evaluate the impact of the elimination of the TeleFile Program
on taxpayers and the IRS’ efforts to increase electronic filing, and will report the results
later this year.

Providing Quality Taxpayer Service Operations for the 2006 Filing Season

        Providing quality customer service to the taxpayer is not only a primary goal of
the IRS, but it is also one of its major management challenges. The Commissioner has
frequently stated that service combined with enforcement will result in compliance.
Quality taxpayer service includes helping the taxpaying public understand their tax
obligations while making it easier to participate in the tax system.

        Since the passage of the RRA 98, the IRS’ focus on customer service has led to
many improvements. One of the goals of the IRS is to improve taxpayer service by
improving service options, facilitating participation in the tax system by all sectors of
the public, and simplifying the tax process. Every year, the IRS helps millions of
taxpayers understand their tax obligations by answering questions on its toll-free
telephone lines or in person at local offices, making information available on its web
site, and responding to correspondence.

        Over the past seven years, the IRS has made commendable strides in customer
service. However, I am concerned that the IRS does not sufficiently ensure that it uses
adequate and reliable data for making decisions that impact customer service operations.
Recent decisions to close Taxpayer Assistance Centers (TAC) and reduce the hours of
operation for toll-free telephone service were based primarily on input from IRS
functional areas and considered other factors that included internal priorities, resource
demands, and shifts in the IRS’ customer service perspective. However, data were not


                                             8
obtained from taxpayers who use these services to determine the impact of removing or
reducing them.

        After the IRS’ closure announcement, Congress enacted legislation to delay the
closure of any TACs.12 The IRS is prohibited from using funds provided in the
Fiscal Year 2006 budget appropriation to reduce any taxpayer service function or
program until TIGTA completes a study detailing the effect of the IRS’ plans to reduce
services relating to taxpayer compliance and taxpayer assistance.

IRS.gov

        IRS.gov continues to be one of the most visited Web sites in the world, especially
during filing seasons. As of the week ending March 18, 2006, the IRS is reporting a
5.7 percent increase in the number of visits to IRS.gov over the same period last filing
season. The IRS now provides practitioners with online tools to provide better service to
their customers, such as electronic account resolution, transcript delivery, and disclosure
authorization. As of the week ending March 18, 2006, the IRS is also reporting a
17.9 percent increase in taxpayers obtaining their refund information online via
“Where’s My Refund.”

Toll-Free Operations

         The 2006 Filing Season has presented unique challenges for the IRS toll-free
operations. The IRS had also planned to reduce the hours of its toll-free telephone
operation in Fiscal Year 2006. The IRS has about 400 fewer full-time equivalents for
toll-free telephone operations than it had in Fiscal Year 2005 because of plans to reduce
operating hours from 15 to 12 hours per day. Congress, the Taxpayer Advocate and the
National Treasury Employees Union have expressed concerns about the IRS reducing
operating hours for the toll-free telephone lines. A new law enacted in November 2005
requires the IRS to consult with stakeholder organizations, including TIGTA, regarding
any proposed or planned efforts to terminate or significantly reduce any taxpayer service
activity.13 Congress recently further defined a reduction of taxpayer service to include
limiting available hours of telephone taxpayer assistance on a daily, weekly, and monthly
basis below the levels in existence during the month of October 2005. TIGTA is
currently assessing the IRS’ plans to reduce operating hours and will report its results
later this year.

        As of March 18, 2006, assistor level of service has not been negatively impacted,
with an IRS reported level of service rate of 84.3 percent. In addition, about 8 percent
fewer assistor calls are being answered but the number of taxpayers who hang-up prior to
reaching an IRS assistor is up 8.5 percent. The average speed of answer is about
60 percent of the time planned so those taxpayers who are calling and talking with an
assistor are not experiencing longer wait times.
12
   Transportation, Treasury, Housing and Urban Development, the Judiciary, the District of Columbia, and
Independent Agencies Appropriations Act, 2006, Pub. L. No. 109-115, 119 Stat. 2396 (2005).
13
   The Transportation, Treasury, Housing and Urban Development, the Judiciary, the District of Columbia,
and Independent Agencies Appropriations Act, Pub. L. No. 109-115, 119 Stat. 2396 (2006).


                                                   9
       In planning for Fiscal Year 2006, IRS management expected fewer calls program-
wide, even after taking into consideration taxpayers affected by Hurricanes Katrina and
Rita. IRS management believed that most taxpayers needing disaster relief assistance
obtained it during the latter part of 2005. Prior to the start of the filing season, TIGTA
brought to IRS management’s attention our concern that more taxpayers than expected
could call the help line with questions due to the effects of Hurricanes Katrina and Rita.

        After we shared our concern, IRS management raised the estimated volume of
services to these telephone lines by about 78,000 services, from approximately 27,000 to
about 105,000 from January through June 2006, a 365.1 percent increase over the total
Fiscal Year 2005 services provided on those telephone lines. For the 2006 Filing Season
it appears that the calls to these telephone lines are higher than anticipated. For example,
the IRS had planned 59,081 services for one of its applications devoted to assisting
disaster victims; however, through March 16, 2006, the IRS has already provided
106,141 services.

Taxpayer Assistance Centers

       The TACs are walk-in sites where taxpayers can receive answers to both account
and tax law questions, as well as receive assistance preparing their returns. The IRS has
acknowledged that staffing would be a challenge during the 2006 Filing Season since not
all TACs would be fully staffed and not all TACs will provide standard services or
standard hours of operation (from 8:30 a.m. to 4:30 p.m., Monday through Friday). As of
December 1, 2005, the IRS identified 47 TACs with critical staffing shortages (a critical
vacancy is one that must be filled to ensure that a TAC remains open).

        The IRS took actions to minimize the impact of the staffing shortages. As of
January 31, 2006, the IRS had hired additional frontline technical employees, recalled
intermittent employees back to work, detailed former TAC employees from their current
positions in other IRS functions back to the TACs, and made plans to have some
employees travel between TACs to ensure that all TACs remain open daily. The IRS’
decision to focus more resources on compliance activities, however, has further limited
resources available for the TAC Program. As a result, the IRS has limited some
assistance services and not all TACs are open during standard operating hours. As of the
week ending March 11, 2006, the IRS is reporting a 12.8 percent reduction in
TAC contacts with taxpayers.

        Although the IRS publicized when TAC operating hours are limited, it did not
publicize when TACs limit their services. When notified by TIGTA, the IRS
implemented changes and standardized the list of services offered at each TAC.
Furthermore, the IRS modified its Internet site, IRS.gov, to indicate when TACs would
provide limited services.

        While planning for the 2006 Filing Season, the IRS considered the impact of
Hurricanes Katrina and Rita. Specifically, the IRS accounted for all employees affected
by the hurricanes and located alternate office space in affected areas. All TACs in
impacted areas are open and operational for the 2006 Filing Season. The IRS also added


                                            10
services to help lessen taxpayer burden, including tax return preparation for taxpayers
affected by the hurricanes regardless of the income guidelines. Additionally, the scope of
tax law topics in which assistors are trained was expanded to provide assistance to
taxpayers with questions about casualty losses. Furthermore, the IRS will treat taxpayers
affected by Hurricanes Katrina and Rita as meeting extreme hardship criteria. That
designation allows affected taxpayers to request and immediately receive transcripts of
prior year tax returns instead of having to order them and wait for delivery.

        TIGTA is currently in the process of making anonymous visits to TACs to
determine if taxpayers are receiving quality service, including correct answers to their
questions. TIGTA will also visit additional TACs to ask tax law questions specifically
related to the Katrina Emergency Tax Relief Act of 2005. IRS assistors should have been
trained to answer these questions. TIGTA’s preliminary observations are that assistors
sometimes inappropriately refer taxpayers to publications to conduct their own research,
or respond to tax law questions without following required procedures such as using the
publication method guide that requires them to ask probing questions.

Volunteer Income Tax Assistance (VITA) Program

        The VITA Program plays an increasingly important role in IRS’ efforts to
improve taxpayer service and facilitate participation in the tax system. The VITA
Program provides no-cost Federal tax return preparation and electronic filing to
underserved taxpayer segments, including low income, elderly, disabled, and limited-
English-proficient taxpayers. These taxpayers are frequently involved in complex family
situations that make it difficult to correctly understand and apply tax law.

        TIGTA is currently in the process of visiting VITA sites to determine if taxpayers
are receiving quality service, including the accurate preparation of their individual
income tax returns. TIGTA developed scenarios that are designed to present volunteers
with a wide range of tax law topics that taxpayers may need assistance with when
preparing their tax returns. These scenarios include the characteristics (e.g., income
level, credits claimed, etc.) of tax returns typically prepared by the VITA Program
volunteers based on an analysis of the Tax Year 2004 VITA-prepared tax returns.
TIGTA’s preliminary observations are that volunteer sites do not always use the tools and
information available when preparing returns.


Conclusions


        To date, TIGTA has not identified any significant processing problems during the
2006 Filing Season. Furthermore, the IRS has taken a number of actions to ensure that
taxpayers impacted by Hurricanes Katrina and Rita are able to obtain disaster relief
assistance. TIGTA will continue monitoring the IRS’ administration of the disaster relief
provisions to ensure that impacted taxpayers are receiving the relief to which they
are entitled.



                                           11
        While the 2006 Filing Season appears to be progressing without major problems,
I am concerned that changes in the Free File Agreement as well as the elimination of
Telefile Program may have contributed to a significant slowing of the growth in
electronic filing this year. This slowed growth comes at a time when the IRS is still far
from reaching Congress’ goal of 80 percent electronic filing by 2007. Slower growth in
electronic filing will defer the efficiency gains for the IRS that result from
electronic filing.

        Reducing customer services, such as TAC closures, the elimination of the
TeleFile Program, and a reduction in toll-free hours of operation, to gain resource
efficiencies must be carefully considered before any further decisions are made. TIGTA
continues to be concerned that the IRS does not ensure that it has adequate and reliable
data prior to making decisions that impact customer service operations. Before
proceeding with these efforts, the IRS needs to better understand the impact of such
changes on taxpayers as well as taxpayers’ abilities to obtain these services through
alternative means.

       I hope my discussion of some of these 2006 Filing Season issues will assist you
with your oversight of the IRS’ filing season operations. Mr. Chairman and Members of
the Subcommittee, thank you for allowing me to share my views. I would be pleased to
answer any questions you may have at this time.




                                           12
